IN THE
SUPREME COURT OF THE UNITED STATES

October Term, 2020

No. 20-

Larry Durant,
Petitioner,
vs.
State of South Carolina,

Respondent.

AFFIDAVIT OF SERVICE

 

 

I, Laura Wingard, being duly sworn according to la w and being over the age of 18 , upon
my oath depose and say that:

Iam employed at the Grose Law Firm by Counsel of Record for Petitioner. That on the 6"
day of October, 2020, I served the within Petition for a Writ of Certiorari, Appendix, and Motion
for Leave to Proceed In Forma Pauperis in the above-captioned matter upon:

William F. Schumacher, IV, Esquire

Office of the Attorney General

P. O. Box 11549

Columbia, SC 29211
by depositing a copy of same, addressed respectively, and enclosed in a post-paid, properly
addressed wrapper, in an official depository maintained by the United States Postal Service.

That on the same date as above, I sent to this Court the original and ten copies within

Petition for a Writ of Certiorari and the Motion for Leave to Proceed In Forma Pauperis through
the United States Postal Service, postage prepaid. In addition, the brief has been submitted
electronically through the Court’s electronic filing system. All parties required to be served have
been served. I declare under penalty of perjury that the foregoing is true and correct.

Executed this 7th day of December, 2020.

By Basra Wingard

Laura Wingard

The Grose Law Firm, LLC
404 Main Street
Greenwood, SC 29646
(864) 538-4466

Sworn to and subscribed before me

   
  

this —T day of , 2020
NOTARY PUBLIC FOR SOUTH CAROLINA
My Commission Expires: S/3/ [202-5

Be
